Memorandum from the Office of the Inspector General



February 14, 2008

Paul R. LaPointe, WT 3A-K

FINAL REPORT – INSPECTION 2007-10994 – REVIEW OF TVA CONTRACTOR
PURCHASING CARD USAGE



Attached is the subject final report for your review and action. As discussed with
Procurement personnel on January 22, 2008, the subject report is being issued in
presentation format. Your written comments, which addressed your management
decision and actions planned or taken, have been included in the report. Please notify us
when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Rick C. Underwood, Project Manager, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:BKA
Attachment
cc (Attachment):
     William H. Bonham, WT 3A-K
     Robin Presnell Evans, WT 3A-K
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     John E. Long, Jr., WT 7B-K
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-10994
Review of TVA Contractor Purchasing
            Card Usage

            2007-10994
         February 14, 2008
Summary
      y of Findings
                 g
      We reviewed use of TVA contractor purchasing cards and found instances of
               p
       noncompliance   with TVA ppolicies and p
                                              procedures. Specifically,
                                                           p         y, our review of
       111 randomly and judgmentally selected TVA contractor purchasing card transactions
       found the following instances of noncompliance:
       – Two purchases approved for items specifically disallowed by the purchasing card policy.
       – Three purchases approved without detailed receipts showing items purchased, quantity of items
         purchased,
             h   d and/or
                      d/ ititem d
                                descriptions.
                                     i ti
       – Nine purchases approved without receipts.
      Our review also noted areas where controls over the use of TVA contractor purchasing
       cards could be improved. Specifically:
       – Purchases made where supporting receipts/invoices provided no indication that TVA was acquiring
         the goods and the source of payment was TVA. Receipts/invoices showed the contractor as
         responsible for payments.
       – Some approving officials were (1) not aware of specific needs of jobs for which the goods and
         services were being purchased and/or (2) responsible for review of purchases made by
         contractors working
                           g in another location.
       – Transactions were split which gives the appearance of an attempt to circumvent required approval
         level authority.
       – Cardholders and other individuals obtaining reward points at retailers when making purchases that
         would earn gift certificates or other rebates that could have been applied to future TVA purchases.
         In one instance, neither the cardholder nor the approving g official was aware that points were being
                                                                                                             g
         earned on the purchases. The cardholder supplied the card to someone else to make the
         purchase.

                                                                                                                 2
Background
    g
   Our review of applicable TVA policies and procedures and discussions with TVA
   Procurement personnel found that:
      Purchasing cards are provided to TVA organizations for purchases of small-dollar
       materials and services when it is determined to be the best procurement vehicle for
       purchases; as a general rule, up to and including $5,000.
      P h i card
       Purchasing d charges
                     h      are paid
                                  id b
                                     by TVA
                                        TVA.
      Purchasing cards are to be used in accordance with the TVA procurement policy titled
       “VISA Purchasing Card Procedure.”
       – Training must be completed prior to issuance of the card.
       – Annual
         A      l refresher
                    f h training
                            t i i mustt be
                                        b completed.
                                                l t d
      In addition to issuing purchasing cards to TVA employees, TVA has also issued
       purchasing cards to contractors. Cards issued in the name of contractors are commonly
       referred to as contractor purchasing cards.
      TVA purchasing cards have been issued to contractors who are not located at a TVA
       site.
         i
      There were 21 contractors with TVA purchasing cards during the period under review.




                                                                                              3
Background
    g      (cont.)
           (     )
    Our analytical review of transaction and statement data from the Integrated Credit
    Card System (ICCS) from March 28, 2004, to March 24, 2007, indentified:
         35,605 transactions made by individuals identified by TVA management as contractors.
         Approximately $16.7 million was purchased by contractors with TVA purchasing cards.
         Six cardholders had purchases that exceeded $1 million.
         The top 20 vendors* accounted for over 20,000, or 56.48 percent of the 35,605 total
          transactions, and over $9.5 million, or nearly 57 percent of the $16.7 million in purchases.




    *See chart on next page for top 20 vendor information.




                                                                                                    4
Background
    g      (cont.)
           (     )
       The top 20 vendors based on dollar purchases during the period under review are
        shown below.

                                                          Transaction
                              Name                           Count    Transaction Amt % Count    %$
        LEWIS ELECTRIC SUPPLY                                   3,643       1,922,334   10.23%   11.49%
        STOKES ELECTRIC CO                                        769         846,349    2.16%    5.06%
        PORTER WALKER LLC                                        3253         783 404
                                                                              783,404    9 14%
                                                                                         9.14%    4 68%
                                                                                                  4.68%
        MCCARTHY JONES AND WOODAR                                 216         779,715    0.61%    4.66%
        G.B.I                                                   1,001         703,313    2.81%    4.20%
        IRVING MATERIALS                                          530         475,862    1.49%    2.84%
        THURMAN-BRYANT ELECTRIC                                 1,102         384,909    3.09%    2.30%
        VULCAN MATERIAL COMPANY                                   794         337,886    2.23%    2.02%
        RENTAL SERVICE CORP                                       598         337,335    1.68%    2.02%
        BEN PARKER CO                                             306         335,326    0.86%    2.00%
        CARDINAL TOOL SUPPLY                                      321         334,489    0.90%    2.00%
        SISKIN STEEL & SUPPLY CO                                  545         322,865    1.53%    1.93%
        FASTENAL                                                2,295         312,335    6.44%    1.87%
        CONSOLIDATED PIPE & SUPPLY                                656         293,246    1.84%    1.75%
        DIVERSIFIED SUPPLY INC                                    532         259,937    1.49%    1.55%
        MAYER ELECTRIC SUPPLY INC                                 407         256 144
                                                                              256,144    1 14%
                                                                                         1.14%    1 53%
                                                                                                  1.53%
        LOWE'S                                                  1,621         232,880    4.55%    1.39%
        SHERWIN WILLIAMS                                          884         218,462    2.48%    1.31%
        ENCO MATERIAL                                             350         199,617    0.98%    1.19%
        INDUSTRIAL WELDING SUPPLY                                 296         196,347    0.83%    1.17%
                                                  Total        20,119       9,532,755   56.48%   56.96%




                                                                                                          5
Objective,
  j      , Scope,
              p , and Methodology
                               gy
    Objective
    To determine
    T  d t    i whether
                    h th contractor
                              t t purchasing
                                         h i card  d usage dduring
                                                               i ththe period
                                                                          i d under
                                                                                d review
                                                                                     i
    was for a valid business purpose and in compliance with TVA VISA Purchasing Card
    Procedures.
    Scope
    TVA Contractor VISA Purchasing Card purchases made from March 28, 2004, to
    March 24, 2007.
    Methodology
    To achieve our objective
                   objective, we:
       Obtained an understanding of the key processes and control activities relating to the
        purchasing card program by:
        – Reviewing applicable TVA policies and procedures.
        – Interviewing TVA Procurement personnel and VISA Purchasing Card approving officials.
       Conducted an analytical review of all 35,605 purchasing card transactions made by
        contractors to gain a perspective on the types and magnitude of charges.




                                                                                                 6
Objective, Scope, and Methodology
(cont.)
(   t)
    Methodology (cont.)
         Reviewed training records to ensure that all contractors with VISA Purchasing Cards
          and their approving officials had completed required online training.
         Randomly selected 50 transactions totaling $47,870 and judgmentally selected
          another 61 transactions totaling $96,054 to:
          – Assess the adequacy of supporting documentation.
          – Determine if purchases were allowed under TVA policies.
          – Determine if purchases were made in a manner compliant with TVA policies.*
         For the ten cardholders related to the 50 randomly sampled and the 61 judgmentally
          selected transactions, we also determined whether TVA 17470, Visa Purchasing Card
          Request Form, or an e-mail was sent from the appropriate TVA manager to the TVA
          purchasing card program administrator requesting issuance of a card.
         In addition to the sample transactions, we also reviewed supporting documentation for
          the other transactions on the supplied purchasing card statements.

    This inspection was conducted in accordance with the “Quality Standards for Inspections.”

    * Our sample selection was not made with the intention of projecting the results of our tests to the entire population of TVA
      contractor p
                 purchasing
                          g card transactions.




                                                                                                                                    7
Finding
      g 1 - Compliance
               p       with Policies
    We reviewed 111 sampled transactions (i.e., 50 randomly selected and
    61 judgmentally selected) and found the following in regard to the use of TVA
    contractor purchasing cards and compliance with TVA policy and procedures.


                        Control Tests                                                   Test Results
     Determine if VISA Purchasing cardholders and approving       We noted no exceptions for the cardholders and approving
     officials completed the online purchasing card training      officials in our sample.
     module.
     Determine if approving officials are electronically          We noted no exceptions for statements found in the sample.
     approving statements in the TVA ICCS as required by
     th VISA P
     the      Purchasing
                   h i C  CarddP Procedure.
                                       d


     Determine if approving officials are TVA employees as        We noted no exceptions for approving officials found in the
     required by the VISA Purchasing Card Procedure.              sample.


     Determine if VISA Purchasing Card charges were               No receipt was provided to support the expenditure for 9 of
     supported by a receipt. (TVA organizations are required      the 111, or 8.1 percent, of the sampled transactions we
     by policy to maintain terminated contractor’s                reviewed.*
     documentation for review.)


    * Six of the nine transactions with no supporting receipts were on purchasing cards assigned to two individuals who are either
      no longer contractors with TVA or no longer have purchasing cards. The associated approving official for five of the six
      transactions is no longer with the company as well.

                                                                                                                                     8
Finding 1 - Compliance with Policies
(cont.)
(   t)

                       Control Tests                                               Test Results
     Determine if receipts provided contain adequate           We identified 3 receipts of the 111 sample transactions, or
     documentation to determine what was purchased and the     2.7 percent, with little or no detail.
     amount paid.


     Determine if purchases were for items allowed under TVA   We noted that 2 of the 111 sample transactions, or
     policies.                                                 1.8 percent, were for fuel which would be considered a
                                                               disallowed purchase under the policy if the purchase was
                                                               made in relation to travel.


     Determine if purchases above the standard $5,000          We noted no exceptions for transactions above $5,000
     transaction limit received proper approval.               found in the sample.




     Determine whether TVA 17470, Visa Purchasing Card         We noted no exceptions for cardholders found in the
     Request Form, was completed and approved as required      sample.
     or an e-mail was sent from the appropriate TVA manager
     to the TVA purchasing card program administrator
     requesting issuance of the respective VISA Purchasing
     Card.




                                                                                                                             9
Finding 1 - Compliance with Policies
(cont.)
(   t)
       In addition to the supporting documentation for our sample transactions, we performed a
        jjudgmental
            g        review of supporting
                                 pp     g documentation for other transactions that appeared
                                                                                     pp      on
         the same monthly statements as our sample transactions. Review of this documentation
         found:
        – 35 transactions specifically disallowed by policy. These included computer equipment, computer
          software, fuel purchases, rental of heavy equipment, and rental of vehicles.
        – 120 transactions where it appears that the total charges were split to stay below the $5,000 standard
          transaction limit and requirement for additional approval. If the transactions had not been split, there
          would have been 41 transactions.
        – 58 transactions with no detailed receipt.
        – 17 transactions with no receipt
                                  receipt.
        – 7 transactions with receipts that were illegible.
        – 1 transaction where the receipt quantities and prices do not support the charge.




                                                                                                              10
Finding 2 – Control Improvement
O
Opportunities
      t iti
       During our review of sample transactions and associated statements, we observed the
                g
        following:
        – Purchases made where supporting receipts/invoices indicate that the purchase was made with
          contractor funds rather than by TVA.         .
          ▪ This increases the opportunity for contractors to bill TVA again by submitting the
             invoices/receipts for reimbursement.
          ▪ We identified 61 transactions where there is a potential for double
                                                                         double-billing.
                                                                                billing
        – Some approving officials were (1) not aware of specific needs of the jobs for which the goods and
          services were being purchased and/or (2) responsible for review of purchases made by contractors
          working in another location.
          ▪ This increases the risk that inappropriate purchases are approved because the approving official
             may not have direct knowledge of work being performed or materials/supplies that are needed
                                                                                                    needed.
        – Six transactions where the charges were linked to a store rewards program.
           ▪   Two transactions were linked to Best Buy’s Rewards Zone program. This resulted in
               approximately $155 in gift certificates that can be used at Best Buy. Neither the purchasing
               cardholder nor the approving official was aware that points were earned on the transactions, as
               the cardholder supplied the card to someone else to make the purchase
                                                                                purchase.*

        * The TVA purchasing card policy allows the cardholder to supply his/her card to someone else to make a
          purchase. While this is a common practice at TVA, we believe it increases the risks of fraud, waste, and
          abuse.




                                                                                                                     11
Recommendations

   We recommend the Senior Vice President
                                President, Procurement:
      Establish controls designed to reduce the risks of:
       – Disallowed items being purchased with a TVA contractor purchasing card without prior documented
         approval.
       – Contractors splitting a transaction to avoid approval requirements.
       – Transactions being approved without detailed supporting documentation that includes descriptions
         of items purchased, quantities purchased, and unit costs.
       – Supporting documentation not being retained when employees and/or contractors leave the
         organization.
      Require supporting receipts/invoices for purchasing card transactions to indicate that
       TVA maded the
                  th purchase
                          h     rather
                                   th th
                                       than another
                                                th party.
                                                       t
      Require approving officials have knowledge of the work to be performed and the goods
       and services required to perform that work.
      Develop a formal policy concerning the use of purchase reward programs.
   Th Senior
   The S i Vice
             Vi President,
                  P id t Procurement,
                             P             t concurred
                                                     d with
                                                         ith th
                                                             the reportt and
                                                                           d our
   recommendations. They plan to implement appropriate actions by March 31, 2008. The
   Appendix contains the details of these planned actions with which we concur.




                                                                                                       12
APPENDIX
Page 1 of 2
    APPENDIX
    Page 2 of 2




 
